Audit Report 97-12
UNITED STATES MARSHALS SERVICE
MANAGEMENT OF PROPERTY AND CAPITALIZED ASSETS
Audit Report 97-12, (5/97)
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
FINDINGS AND RECOMMENDATIONS
I. USMS PROPERTY MANAGEMENT SYSTEM IS INADEQUATE
Property Management System Requirements
Overview of the Property System
Review of Methodology and Results
Significant Amounts of Property Were Unaccounted For
One-Third of Property Located On-Site Was Not Contained in the PMS
Property Had Missing or Incorrect Serial Numbers,
Barcode Numbers, or Values
Updating PMS Can Take Over 1 Year
Most Property Purchased at District and Field Offices Was Not
Entered into the PMS
Inventories Were Not Adequate or Not Performed Timely
Lack of Controls Pervasive at the Information Technology
Services Office
Significant Amounts of Idle Property Were Identified
Conclusion
Recent USMS Actions
Recommendations
II. THE USMS FIXED ASSET ACCOUNTS WERE MISSTATED
Congressional Requirements for Financial Statements
Capitalized Property Record System
USMS FY 1995 Trial Balance
Leasehold Improvements
Capitalized Leases
Aircraft, Vehicles, and Other High Cost Property
Conclusion
Recent Action on Fixed Asset Deficiencies
Recommendations
SCHEDULE OF DOLLAR-RELATED FINDINGS
APPENDIX I - AUDIT SCOPE AND METHODOLOGY
APPENDIX II - PROPERTY TABLE BY TYPE AND VALUE
APPENDIX III - LIST OF SITES REVIEWED
APPENDIX IV - SUMMARY OF AUDIT FINDINGS BY LOCATION
APPENDIX V - STATISTICAL SAMPLING MODEL
APPENDIX VI - ACRONYMS AND DEFINITIONS
APPENDIX VII- USMS RESPONSE TO THE DRAFT REPORT
EXECUTIVE SUMMARY
The U.S. Marshals Service (USMS) is a nationwide law enforcement agency with 3,185
employees. Its mission includes locating fugitives, protection of federal courthouses,
transportation of prisoners, and relocation of protected witnesses. During FY 1996, the
official USMS property management system contained 52,000 items valued at about $120
million, mostly computers and communications equipment. In brief, our audit determined:
At least 2,776 items of property worth almost $3.5 million could not be located.
At least 5,070 items of property worth over $4 million were idle.
Almost $500,000 worth of property was physically identified at the various audit sites
but was not accounted for in the inventory system. The property accounted for about
one-third of all property we tested. As this property was not adequately protected,
it was vulnerable to theft, loss, waste or abuse.
Property records were inadequate, inventories were inadequate or not timely performed,
controls over property were weak, and training and supervision of staff responsible for
property management was deficient.
Property management was hampered by a cumbersome and inefficient computer system that
requires centralized data input at USMS Headquarters.
Our findings included all types of property, however, the most serious problems related
to computer equipment. A disproportionate share of the property that could not be found
was assigned to the USMS Headquarters offices.
We also determined that capitalized assets were not accounted for properly, resulting
in an account misstatement of at least $112 million. The types of assets included
capitalized leases, leasehold improvements, vehicles, and aircraft. This weakness was
primarily the result of: (1) a lack of communication between the USMS and the Justice
Management Division, who is preparing financial statements for the Department; and (2) an
insufficient automated accounting system to support financial statements.
The details of our results are contained in the Findings and Recommendations section of
the report. Our audit scope and methodology are contained in Appendix I.
On March 17, 1997, the USMS issued a memorandum indicating initiation of corrective action
to resolve all the recommendations in the report. A copy of that memorandum is included as
Appendix VII.
INTRODUCTION
The USMS has a primarily decentralized organizational structure, organized into 94
district offices with at least 200 suboffices; a centralized Headquarters (HQ) unit in
Washington D.C., and regional/field offices for the various Headquarters Divisions. The
automated Property Management System (PMS) is utilized by the USMS to manage property
dispersed throughout the organization. A chart listing property types for the entire
system by number and dollar value is included as Appendix II.
The PMS is a module of the Financial Management Information System (FMIS). FMIS was
developed and is maintained by the Justice Management Division (JMD). There is no linkage
between the USMS PMS and its accounting system. The PMS is a centrally maintained system
requiring all additions, deletions, and changes to be made by USMS property management
staff in Washington, D.C. The PMS does not differentiate between property assigned to a
district office or to any of its suboffices, nor does it identify a particular individual
who has custody of the property in the district/office. Therefore, this information must
be maintained separately by the local office.
In addition to tracking property at USMS Headquarters and in the field, the USMS needs
to keep track of capitalized property such as leases and leasehold improvements. A
Department of Justice financial statement audit requires the accurate reporting of all
capitalized assets valued at $25,000 or more. The USMS has JMD prepare its financial
statements, including maintaining all of the USMS general ledger account balances.
Information in the PMS is used to support some account balances but other assets, such as
capitalized leases and leasehold improvements, are not defined as accountable property and
are maintained in a separate record.
FINDINGS AND RECOMMENDATIONS
I. USMS PROPERTY MANAGEMENT SYSTEM IS INADEQUATE
The USMS PMS does not adequately record, manage, and control personal property. An
overall cause is the cumbersome and inefficient computer-based property management system.
The current system does not allow field offices to manage their own property records, but
instead requires centralized data input at USMS Headquarters. Other causes include
property records being inaccurate and not current, inventories are not conducted timely or
conducted properly, controls over property are weak or nonexistent, and staff receiving
insufficient training and supervision. Based on our testing, about $4 million of USMS
property is at risk of loss, theft or misuse.
Property Management System Requirements
The Office of Management and Budget (OMB) Circular A-123, Revised, states that the
objectives of internal control systems are to provide management with reasonable assurance
that:
assets are safeguarded against waste, loss, unauthorized use, and misappropriation;
revenues and expenditures are recorded and accounted for properly;
accountability of the assets is maintained; and
transactions are promptly recorded, properly classified and accounted for in order to
prepare timely accounts and reliable financial and other reports.
DOJ Order 2450.1A requires that a property management system be designed to maintain
data on property throughout the organization and provide management with accurate
information including property utilization and accountability.
Overview of the Property System
Accountable property as defined by the USMS has three primary characteristics: (1) an
acquisition value of at least $200, (2) an expected useful life of at least 1 year, and
(3) it does not become a component part of another item. There are exceptions to this list
such as leased property and furniture.
The property system used by the USMS is a centrally maintained ADP system requiring all
additions, deletions, and changes to be made by property management staff at Headquarters.
Changes are made based on manual input from district/field offices. USMS district and
field offices cannot query the system, or change any records. Staff must request inventory
lists from Headquarters to determine the status of property in their office. The system
does not differentiate between property assigned to a district office or to any of its
suboffices, nor does it identify a particular individual who has custody of the property.
As a result, field offices must maintain this information separately.
The system is not integrated with the USMS' accounting or procurement systems and is
therefore a fragmented, rather than unified system. Property management staff depend on
paperwork sent in from the accounting and procurement offices to alert them to any new
accountable property.
At the initiation of our audit, there was a separate Property Management Division in
Headquarters. In December 1996, the USMS implemented a reorganization and changed this
structure. Property management responsibilities are now integrated into field support
teams.1
Review of Methodology and Results
In order to test the effectiveness of the USMS' property management system, we
concentrated on what we considered to be the property most vulnerable to loss, theft, or
misuse. These categories were weapons and computers, representing about 46 percent of all
accountable property in the USMS. We supplemented these categories with an overall
property category that included the remaining types of property.
We reviewed property records at 18 district offices, 4 Headquarters field offices
outside Washington, D.C., and the USMS Headquarters2.
Together, these offices maintained about 36 percent of the USMS property items nationwide.
We performed the following eight tests of the property records. Specifically, we:
obtained property listings by office and verified the existence of the property on-site;
selected property on-site and verified that it was contained in the property system;
verified the validity of serial numbers, barcode numbers, and values;
measured how long it took for updates to the system to be entered at USMS Headquarters;
verified whether property procured locally was entered into the PMS;
assessed physical inventory procedures and determined if they were performed adequately;
tested property controls in the Information Technology Services (ITS) Office at USMS
Headquarters; and
determined the extent of idle property.
For tests 1 and 8, we were able to use statistical sampling techniques to project our
results to the universe of property. For test 3, we tested the entire PMS and our results
are for the universe. For the remaining tests, our results are only for the offices
reviewed and are not projected. Because of the magnitude of deficiencies at ITS, we
performed more in-depth tests at this office. A detailed discussion of our results for
each of the tests follows. For a matrix containing our tests, deficiencies, and their
magnitude, please see Appendix IV.
Significant Amounts of Property Were Unaccounted For
We reviewed a PMS property listing to determine if items could be found on-site. An
item was considered found if we physically saw it, or we were provided satisfactory
documentation it existed at another location. Based on statistical sampling, at least
2,776 items valued at almost $3.5 million cannot be located3.
USMS Headquarters property comprised about 15 percent of the items in the PMS. However,
the majority of the property not located was assigned to USMS Headquarters, both in terms
of the number of items and their dollar value. Computer equipment comprised the majority
of unaccounted for property. Except for one instance, all firearms we tested were
accounted for.4
One-Third of Property Located On-Site Was Not Contained in
the PMS
We judgmentally selected accountable property items at sites and determined if
the equipment was on the USMS inventory list. At Judicial Security Division (JSD)
offices, we also traced items to the supplemental inventory list5.
We refer to this as our "walk through" inventory. If an item was not on either
list, we determined whether paperwork had been initiated to add it to the PMS. Of the 616
items selected for this test, 405 items were in the PMS, 8 were on a JSD supplemental
list, and 203 items (33 percent) worth approximately $488,662 were not in the accountable
property records. These results are for only the locations we tested and are not
projected.
Because PMS data input is centralized in USMS Headquarters, we determined whether
paperwork had been initiated to add the 203 items to PMS. We found that paperwork for 125
of the items (62 percent) had not been initiated to add the property to the PMS or the JSD
supplemental list.
As part of our walk-through inventory test, we noted that seven weapons on-site
(10 percent of all weapons selected) were not in the PMS. We queried the entire PMS
and found two weapons were in the system but were identified with the wrong
district/office and that five weapons were not accounted for in the system. During our
field work, paperwork had been initiated to add or change information in the PMS for three
of the seven weapons.
A JSD office understated its accountable property by at least $237,000. JSD personnel
stated that as a security precaution, they did not record in PMS sensitive property that
was used in classified operations. As a result of our inquiry, JSD prepared a supplemental
list of unrecorded property items totalling $237,000 that were located in JSD headquarter
and field offices. However, even this supplemental list was incomplete, as a JSD field
office had at least 25 items that were not recorded either in the PMS or the supplemental
list.
In our judgment, USMS property that is not contained in the official property system is
a serious deficiency because it is highly vulnerable to loss, theft, or misuse. The USMS
recognized this problem and since the inception of the audit, has requested property
management personnel to add all accountable property to the system. For example, JSD has
added 21 vehicles valued at $1.6 million and computer equipment acquired at $1.7 million.
In addition, the Air Operations Branch has added almost $900,000 in property and the
Historian's Office has added about $265,000 in property. For purposes of comparison, the
Historian's Office PMS inventory was less than $33,000 as of April 1996.
Property Had Missing or Incorrect Serial Numbers,
Barcode Numbers, or Values
We reviewed the entire PMS database. PMS contained approximately 52,000 items valued at
$120 million. General tests were performed on the database in order to determine the
completeness and validity of the data. We found that:
3,800 non-weapon items had no barcode numbers,
1,025 items had duplicate barcode numbers,
54 items had no barcode or serial number,
84 items had duplicate barcode and serial numbers,
499 items had no value attached to them, and
168 items had a value of $1 attached to them.
Missing and duplicate barcode and serial numbers make it much more difficult to perform
an inventory. Vastly understated values also have a financial impact. An analysis of the
499 items referred to above revealed that 293 of the 499 (59 percent) were assigned to the
Air Operations Division. These items, valued at about $2.2 million, included: 2 Convair
aircraft valued at about $1 million each, 3 aircraft tugs valued at a minimum of $22,500
each, 20 airplane jacks valued at approximately $1,000 each, and 4 forklifts valued at
$16,000 each.
Updating PMS Can Take Over 1 Year
As we discussed before, all entries and changes to the PMS are performed by USMS staff
in Washington, D.C. OMB Circular A-123 standards require the timely updating of inventory
records to ensure the protection of property. In our judgment, the centralized property
management system promotes delays and inaccuracies. An interactive property management
system, with appropriately controlled field office and Headquarters access, would minimize
the delays and provide more reliable information.
Our audit revealed that property received by offices was not being entered into the PMS
in a timely manner. This was the result of the failure of district/office personnel to
forward the required paperwork to USMS Headquarters, and/or the failure of Headquarters
personnel to enter the data in a timely manner. The test results are for only the
locations we reviewed and are not projected.
For the first test, we quantified the days that had elapsed from the date that property
was received in the office/district to the date the paperwork was forwarded to USMS
Headquarters for data entry. We were able to identify 125 transactions where we could
isolate the necessary date information. For these transactions, the elapsed time averaged
162 days or 5.4 months.
For the second test, we quantified the number of days this data was awaiting entry into
the PMS at USMS Headquarters. We compared the date it was sent to USMS Headquarters to the
June 1996 listing used to test the accuracy of the inventory. For this test, 174
transactions were identified that had been submitted but not yet entered into the system.
The average waiting period was 555 days or 18.5 months.
Most Property Purchased at District and Field Offices
Was Not Entered into the PMS
USMS offices were purchasing accountable property and not updating the records to
include this property in the PMS. There appeared to be two primary reasons for this: (1)
the purchasing officials were not notifying the property custodian of the purchases of
accountable property, and (2) USMS personnel were not requesting Headquarters to add newly
purchased property to the inventory system. As a result, accounting and internal controls
over these assets were weakened.
We tested 147 purchases of property bought for about $165,000 in 18 field offices from
July 1, 1995 through March 31, 1996.6 Our tests were
to determine if transactions were being recorded in the PMS. The results of our tests are
for only the locations we reviewed and are not projected. We noted in a majority of
instances, the new purchases were not in the property records as of June 6, 1996. The
total number of items was 118 (about 80 percent of the universe) costing approximately
$139,044. For 82 of the 118 purchases, district personnel had initiated the necessary
paperwork to add the property to the database, but, as of June 1996, the property was not
recorded in PMS. We were able to physically verify or account for all the purchased
property we identified.
We noted another deficiency regarding the acquisition of property and maintenance of
property records. In two offices, the individual responsible for maintaining the property
records was also responsible for procuring accountable property. These two
responsibilities create a separation of duties problem where one individual could purchase
property, omit it from the property records, and misappropriate its use. In our judgment,
this conflict should be eliminated.
Inventories Were Not Adequate or Not Performed Timely
Inadequate Inventories. We noted a lack of internal controls at several
locations concerning the segregation of duties when physical inventories were performed.
Our audit of five Headquarters offices revealed that in four offices, the individual
responsible for maintaining the inventory was involved in conducting the actual inventory.
In the other 22 offices we reviewed, this situation was prevalent in 18 locations. In
total, one person was in a position to manipulate the inventory as well as supporting
property records in 22 of 27 offices reviewed.
The USMS manual states the property custodian may not be a member of the inventory
team, but can provide technical guidance and assistance during the actual inventory. In
addition, each employee taking part in the physical inventory must sign a Certification of
Inventory form stating that they are not involved with the maintenance of accountable
property records. This form becomes a part of the physical inventory records submitted to
the Property Management Branch.
Our review of the certifications signed by the USMS employees revealed that the
required statement was not utilized. This lack of adequate certification may have
contributed to employees misunderstanding that they should not be responsible for
maintaining the local accountable property records and be involved in the actual physical
inventory.
Inadequate and untimely inventories could potentially have been avoided if personnel
with custodial responsibilities were adequately trained. Property Custodians at 23 of the
27 locations visited, stated that they did not receive training in property management.
Inventories Not Performed Timely. DOJ Order, 2450.1A, as implemented by the USMS
manual, requires the completion of an accountable property inventory every 2 years or when
there is a change of Property Custodian, whichever is sooner. We tested the less stringent
2 year requirement and found that 5 of the 27 locations reviewed did not meet it. Three of
these five locations were Headquarters offices.
Lack of Controls Pervasive at the Information
Technology Services Office
The ITS had the most significant internal control problems. ITS is responsible for
purchasing and supporting computer equipment for the entire USMS. The weaknesses had to do
with property under ITS control and property in other USMS offices purchased by ITS.
Property maintained by ITS is among the most vulnerable to waste, theft, or misuse because
of its utility, portability, and relatively high cost.
Controls were deficient over: (1) property ITS employees took home, (2) the timing of
inventories, (3) the accuracy of inventory listings, (4) recording purchases of computer
equipment, and (5) classifying items as accountable property. A discussion of each
follows.
Property Located at ITS Employees' Homes. We noted a lack of internal controls
over accountable property ITS employees took home. The ITS did not require employees to
record personal possession of property.
When we began our review, ITS had three memoranda, all dated in November 1992,
indicating that three employees had computer equipment at home. In addition to being
outdated, the memoranda lacked any identifying information (i.e. serial number, barcodes,
etc.) by which the property could be tracked using the PMS. As a result of our inquiry,
ITS generated a list of employees and the corresponding computer equipment that was in
their possession at home. This new list did provide the item description, serial number,
and barcode (if barcoded). However, ITS did not prepare and maintain any hand receipts for
accountable property in the personal possession of its employees.
We tested the new list to determine if the items appeared in the PMS and more
specifically on ITS' inventory listing. Of 23 computer items listed, 14 (60 percent) did
not appear on the ITS inventory listing. Of these 14 items, 8 were not in the PMS at all;
the remaining 6 were assigned to other offices besides ITS.
We also noted two instances of inaccurate information on the new list of equipment at
ITS employees' homes. First, there were two laptops with identical serial numbers and
barcode numbers listed in the possession of two employees. Second, the barcode number for
these two laptops was already assigned to a mobile radio located at a JSD field office.
The USMS manual states that "Management of accountable property requires
continuous record of accountability and a written audit trail be maintained for all
accountable property at all times." Furthermore, the manual states, "All
accountable property and nonexpendable property issued to employees, or on loan, must be
supported by use of Form USM-325 (Hand Receipt)." Accordingly, ITS was required to
prepare and maintain Hand Receipts for all items issued to employees, including those
located at the employees' homes. However, this was not the practice.
Outdated Inventory. The most recent inventory performed at ITS was dated
September 9, 1993. At the time of our review, the inventory was out of date by 3 years and
at least a year over the required interval for conducting inventories. As previously
stated, an inventory is required to be performed every 2 years or when there is a change
of Property Custodian, whichever is sooner.
We reviewed the last inventory and the accompanying adjustments in order to determine
whether these adjustments were made. Of the 28 items that were unaccounted for as of
September 9, 1993, adjustments were properly made for 25. As a result, these items were
removed from the PMS. However, the remaining three property items were still found in the
PMS. Two computers and a monitor were shown to be located in the Northern District of
Iowa, the District of Hawaii, and at ITS, respectively. Though the USM-134 (Affidavit
regarding lost, stolen, or unauthorized destruction of government property) was properly
prepared, the revisions to the PMS were not made for these three property items.
Accuracy of Inventory Listings. The PMS records for ITS were highly inaccurate.
As of March 6, 1996, the PMS inventory reported a total of 1,651 items valued at about
$2.8 million. In March 1996, we performed two types of tests. First, we physically
verified a random sample of 176 items valued at $293,579 that appeared in the PMS
inventory listing [from the list to the floor]. Second, we compared the recently prepared
USMS contractor list of property to the PMS list [from the floor to the list].
For our first test, 132 items ($177,143) of the 176 sampled were not found, 17 items
($63,000) were found, and the remaining 27 items ($53,436) had paperwork to show whether
the items were excessed or transferred. For the 132 items not found, ITS officials were
unable to determine where these items were located. They explained that when ITS purchased
large quantities of computer equipment for the USMS, the property was recorded on the PMS
inventory listing, but shipped or transferred to other offices.
In our second test, 104 items (41 percent) of the 254 listed on the contractor's
property list were not found on the PMS inventory listing, while 149 were found on the
list. This represents a serious internal control weakness in that these 104 pieces of
computer equipment were at risk of loss or theft.
In October 1996, we reviewed ITS again. We could not locate 19 property items out of 31
randomly sampled for ITS. Four were found and 8 were excessed or transferred. Our second
review confirmed the results of our first review.
Purchases of Accountable Property. ITS lacked adequate controls in managing the
purchases of computer equipment. In our review of three types of purchasing methods that
ITS used from July 1, 1995 to March 31, 1996, there were no controls to:
Identify purchased accountable property.
Record purchased accountable property into the PMS. This would include serial numbers
and barcode numbers.
Maintain documentation (such as receipts, invoices, etc.) for purchases made.
Our tests indicated that accountable property worth $2.1 million (1,034 items; 94
percent of the items tested), purchased during our test period, were not in the PMS as of
June 6, 1996. The table on the following page shows in summary the items tested and our
results.
Purchasing Methods
Property Items Tested
Property Items Found in
PMS
Property Items Not Found
in PMS
Qty
$
Qty
$
Qty
$
VISA
3
$1,447
0
$0
3
$1,447
USM 157s7
383
$735,237
6
$8,693
377
$726,544
J-CAP8
717
$1,500,764
63
$121,252
654
$1,379,512
Totals
1,103
$2,237,448
69
$129,945
1,034
$2,107,503
Property Improperly Classified. During our review, we noted that ITS purchased
255 Uninterrupted Power Supply units (UPS) valued at a total of $197,625 and 175 external
Tape Back-up Units (TBU) valued at a total of $38,850. These UPSs and TBUs had a unit cost
of $775 and $222 respectively, as well as a useful life of more than 1 year. UPSs were
considered exceptions to the definition of accountable property and, therefore, were not
recorded in the PMS. Also, ITS staff explained that they were under the impression that
TBUs were not accountable property. However, the USMS manual states, "Accountable
property is property which is complete within itself, has an expected useful life of one
year or longer, and must be recorded and controlled. In general, accountable property has
an individual, initial acquisition value of $200 or more." Therefore, according to
the USMS manual, UPSs and TBUs should have been considered accountable and recorded in the
PMS.
Significant Amounts of Idle Property Were Identified
We found significant amounts of idle property throughout the USMS. We considered an
item to be idle if it was: described as such by office management, found in the office in
an unopened box, or if it was kept in a storage area obviously not utilized for an
extensive period of time. Before categorizing any equipment as idle, we obtained
confirmation from office management. Based on our use of statistical sampling, at least
5,070 items nationwide valued at about $4.4 million were idle. Examples of the idle
property at a district office included two microwave link systems purchased in April 1991
for approximately $700 each. The equipment apparently had never been used and no one at
the district office knew how to operate the equipment.
We also identified idle property we could not project because it was selected
judgmentally. It was identified during our walk through inventory that consisted of 616
items. In total, 128, or approximately 21 percent, of the items were identified as idle.
The value of these 128 items was $152,381. Examples of idle property included 15 video
printers that were purchased in December 1992 and February 1993 for a total cost of
approximately $17,000. We found the items in un-opened boxes in the USMS warehouse.
The occurrence of idle property across the USMS was proportionate. No specific type of
USMS office had an unusual percentage of this type equipment, resulting in this being a
systemic problem.
Conclusion
The current USMS property management system is inadequate. The types, locations, and
values of equipment contained in PMS are questionable. There are a myriad of causes,
however, an overriding cause is the current computerized system. PMS does not allow USMS
property officials nationwide to query it, or to update it directly when necessary.
Instead, paperwork must flow from the field to Headquarters for centralized data input.
This is a costly, time consuming, inefficient process. The affect of the weaknesses in the
PMS is that significant property is at risk for theft, loss and abuse. In addition, the
current system does not adequately support the required financial statements.
There are other weaknesses in the current USMS property management process unrelated to
PMS. These include inadequate: (1) inventory practices, (2) training, (3) supervision of
personnel, and (4) separation of duties.
Unless the USMS implements a nationwide property management system that users can
access and appropriately update, and corrects the internal control weaknesses identified
herein, we believe significant portions of USMS property will remain at risk for waste,
loss, and theft.
Recent USMS Actions
Recognizing some of the problems with the PMS, the USMS has begun to take corrective
actions. As mentioned previously, some of the Headquarters offices have identified a
significant amount of accountable property to be added to the system. According to the
USMS, it has: (1) hired contract employees to enter data into the system and reduce the
previously identified backlog; (2) processed approximately 6,400 property transactions
worth about $32.6 million since May 1996; and (3) initiated testing of an automated hand
receipt system that should help in performing inventories and control property at the
local level.
Recommendations:
We recommend the Director, USMS:
1. Implement a new, automated system to assist the USMS in its management of property
nationwide. The system should take into account the current system's weaknesses, including
allowing appropriate field and Headquarters access and update capabilities.
Resolved. The USMS has committed to develop an improved property management
system. It expects to have a fully integrated finance and property management system in
place by September 30, 1998.
To close this recommendation, please notify the OIG when the new system is implemented.
Additionally, provide interim updates on the status of its development.
2. Ensure that inventories are conducted as required and that timely adjustments are
made to the property management system.
Resolved. The USMS indicated it will ensure that all physical inventories are
current by September 30, 1997 for field sites and by December 31, 1997 for Headquarters
offices. By April 1, 1997, the USMS indicated it will have eliminated the previous backlog
of adjustments. The USMS also indicated it will establish a new standard requiring all
updates to the system be entered within 30 days from the date of the receipt.
To close this recommendation, please provide evidence that: (1) all inventories are
current, (2) the adjustment backlog has been eliminated, and (3) a 30 day standard is in
place.
3. Ensure that property custodians are not members of teams that perform inventories.
Resolved. The USMS indicated it will notify property custodians of this
requirement by memorandum immediately and monitor physical verification certification
reports for compliance.
To close this recommendation, please provide a copy of the memorandum, and support of
monitoring of their future performance.
4. Ensure that all USMS employees with property management responsibilities receive
adequate training.
Resolved. The USMS indicated it will develop a training program by June 30,
1997. Training will commence by October 1, 1997, and be completed by September 30, 1998.
To close this recommendation, please provide an outline of the training, a list of who
will receive training, and the training dates.
1      The reorganization does not affect
any of the findings in this report.
2      The locations we reviewed are
contained in Appendix III.
3      Our projection methodology is in
Appendix V.
4      One firearm was reported being
stored at a U.S. Attorneys Office as evidence in the Ruby Ridge incident. We did not
physically verify this.
5      JSD created a supplemental list at
the request of the OIG to account for property in its field offices, which were not listed
on the PMS for security reasons.
6      Our tests in Headquarters
concentrated in the Information Technology Services Office because of perceived weaknesses
there. Those results are reported separately.
7      USMS Form utilized for the
requisition of supplies, services and equipment.
8      DOJ-wide contract used to purchase
computer equipment by Information Technology Services.
#####